Ti

C@OCKLE

2311 Douglas Street L l Bri f E-Mail Address:
ega riers
Omaha, Nebraska 68102-1214 & Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 20-733

TERRILL A. RICKMON, SR.,
Petitioner,
Vv.
UNITED STATES OF AMERICA,
Respondent.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 11th day of March, 2021, send out
from Omaha, NE 1 package(s) containing 3 copies of the REPLY BRIEF IN SUPPORT OF PETITION FOR CERTIORARI
in the above entitled case. All parties required to be served have been served by third-party commercial carrier for delivery
within 3 calendar days. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for: ‘
E. KING POOR LUKE VERRILL CASS
QUARLES & BRADY LLP Counsel of Record
300 North LaSalle Street QUARLES & BRADY LLP.
Suite 4000 1701 Pennsylvania Avenue, NW
Chicago, IL 60654 Suite 700
(312) 715-5000 Washington, DC 20006

(202) 372-9600
Luke.Cass@quarles.com.

Counsel for Petitioner

Subscribed and sworn to before me this 11th day of March, 2021.
lam duly authorized under the laws of the State of Nebraska to administer oaths.

       

A. MOTARY-State of Nebraska
RENEE J. GOSS
af My Comm. Exp. September 5, 2023

Sooo Ondiaw-h, ale

Notary Public Affiant 40669

   

 

 
Elizabeth Prelogar

Acting Solicitor General of the United States
U.S. Department of Justice

Room 5616

950 Pennsylvania Avenue, N.W.
Washington, DC 20530-0001

(202) 514-2217

supremectbriefs@usdoj.gov
